App. 1
FILE COPY
OFFICIAL NOTICE FROM
COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
[SEAL]
4/14/2021
Tr. Ct. No. 1465955-A
HOWARD ASHLEY MERE
WR-92,267-01
This is to advise that the Court has denied without
written order the application for writ of habeas corpus
on the findings of the trial court without a hearing and
on the Court’s independent review of the record.
Deana Williamson, Clerk
RANDY SCHAFFER
ATTORNEY AT LAW
1021 MAIN ST. #1440
HOUSTON, TX 77002
* DELIVERED VIA E-MAIL *

App. 2
NO. 1465955-A
EX PARTE
ASHLEY HOWARD
Applicant

§

IN THE 183RD DISTRICT

§

COURT OF

§

HARRIS COUNTY, TEXAS

STATE’S PROPOSED FINDINGS OF FACT,
CONCLUSIONS OF LAW AND ORDER
The Court has considered the application for writ
of habeas corpus, the State’s answer (including any attached exhibits), the affidavit of David Rushing, the affidavit of Cynthia Rayfield-Aguilar, and official trial
court records in the above-captioned cause. The Court
finds that there are no controverted, previously unresolved facts material to the legality of the applicant’s
confinement which require an evidentiary hearing and
recommends that the instant habeas application, cause
number 1465955-A, be DENIED based on the following:
Findings of Fact and Conclusions of Law
1.

Applicant is confined pursuant to the judgment
and sentence of the 183rd District Court of Harris County, Texas, in cause number 1465955 (the
primary case), where Applicant was convicted
pursuant to a jury verdict for the felony offense
of murder.

2.

A jury assessed punishment at thirty-five years
confinement in the Texas Department of Criminal Justice—Correctional Institutions Division.

App. 3
3.

The First Court of Appeals affirmed the trial
court’s judgment. Howard v. State, No. 01-1600120-CR (Tex. App.—Houston [1st. Dist.] April
25, 2017, pet. ref ’d.) (mem. op. not designated for
publication).

4.

Applicant filed the instant writ with habeas
counsel on June 5, 2020.

5.

The State was served with the writ on June 12,
2020.

6.

The trial court timely designated issues to be
addressed and ordered David Rushing and Cynthia Rayfield-Aguilar to file affidavits addressing Applicant’s claims.

7.

The court finds the affidavit of David Rushing to
be credible and the facts asserted therein to be
true.

8.

The court finds the affidavit of Cynthia RayfieldAguilar to be credible and the facts asserted
therein to be true.

9.

Applicant presented an affidavit obtained from
her trial counsel, Maverick Ray. See Applicant’s
writ exhibit 4.

10.

Applicant’s first and ground for relief alleges her
trial counsel on a prior cause number, David
Rushing, was ineffective because Applicant
made an uninformed decision to withdraw her
guilty plea on cause number 1465955. Applicant’s writ at 6.

11.

Applicant’s second ground for relief alleges the
trial court made improper comments during
jury selection. Applicant’s Writ at 8.

App. 4
12.

Applicant’s third ground for relief alleges her
trial counsel on the instant cause was ineffective. Applicant’s writ at 10.

13.

Applicant’s fourth ground for relief alleges her
appellate counsel was ineffective. Applicant’s
writ at 12.
Procedural History

1.

David Rushing represented Applicant on three
charges, cause numbers 1406308, 1394857, and
1389062.

2.

Applicant was not initially charged with the instant case.

3.

In 2014 Applicant pled guilty to cause 1406308
and her case was set for a Pre-Sentence Investigation (“PSI”).

4.

After the PSI report was complete, but before
being sentenced by the trial court, the trial court
informed Applicant that after reviewing the PSI
report, Applicant would receive the maximum
available sentence, ten years confinement.

5.

The trial court informed Applicant that if she
wished, she would be allowed to withdraw her
guilty plea and proceed to trial.

6.

Applicant chose to withdraw her plea.

7.

On January 14, 2015, Applicant was charged
with felony murder in cause 1454408.

8.

Rushing did not represent Applicant on cause
1454408.

App. 5
9.

On April 24, 2015 Applicant’s felony murder
case was refiled under the instant cause.

10.

Rushing did not represent Applicant on the instant cause.

11.

Applicant’s first jury trial for the instant cause
commenced on May 21, 2015 and resulted in a
hung jury on June 1, 2015.

12.

Applicant’s second jury trial for the instant
cause commenced on January 27, 2016, resulted
in a guilty verdict, and concluded on February 4,
2016.
Facts of the Case

13.

Applicant and Raquel Gonzalez were planning
to steal men’s Polo shirts from Deerbrook Mall,
and Shiquinta Franklin would be the getaway
driver (V RR 82-83).

14.

On May 23, 2013, Applicant picked up Gonzalez
and Franklin in her vehicle, a 2013 Dodge
Avenger (V RR 82-84).

15.

Franklin stayed in the car while Applicant and
Gonzalez went inside the Dillard’s store at Deerbrook, then into a Macy’s (IV RR 45; V RR 84,
86).

16.

Gonzalez was scared so the two women left
Macy’s and argued in the parking lot (V RR 8485).

17.

Applicant and Gonzalez went back to Macy’s,
grabbed some Polo shirts, and ran out of the

App. 6
store, setting off the store alarm (IV RR 46-50; V
RR 87-88).
18.

The total value of the shirts was $2,200 (IV RR
48).

19.

Gonzalez got into the front passenger seat of the
Avenger and Applicant got into the back seat (V
RR 88-89).

20.

Humble Police Department officer Richard Moore
was in the parking lot when he was informed
about the theft (IV RR 66, 73).

21.

Moore pulled in behind Applicant’s vehicle,
turned on his emergency lights, and pursued the
vehicle onto Highway 59 (IV RR 74-75).

22.

Franklin called her boyfriend, who told her to
slow down (V RR 91).

23.

Gonzalez told Franklin to stop the car (V RR 92,
95).

24.

Applicant said to “keep going” (V RR 92).

25.

Gonzalez called her cousin Shericia Zenon on
her phone and told her that she was going to jail
for theft (IV RR 165-166) (V RR 90, 95). Zenon
told Gonzalez to pull over, and the call ended
with a boom (IV RR 168-170).

26.

The vehicle reached speeds of over 100 miles per
hour and passed vehicles by driving on the inside shoulder of the highway (IV RR 124-125).

27.

The vehicle ran a red light on the Highway 59
feeder at Quitman, crashing into Rosalba Quezada’s car (IV RR 77, 136; V RR 93).

App. 7
28.

Quezada’s car flipped over and landed on its roof
(IV RR 79, 128, 131-132). She sustained multiple injuries including a tear to her brain stem,
which caused her death (V RR 65, 69, 70, 72).

29.

Applicant lived a block or two from the crash
site and attempted to run away (IV RR 78, 120121; V RR 53, 94). She ran underneath Highway
59 and into a residential area where she was arrested (IV RR 78-79, 127, 174-175).

30.

Applicant was taken to the hospital for a twisted
her ankle and spoke with Robert Klementich
from the Houston Police Department’s vehicular
crime division (IV RR 175; V RR 19-20, 21-23).

31.

Applicant told Klementich that she put paper
tags on her car to hide the actual license plate
(V RR 26).

32.

Applicant admitted that it was her idea to steal
the shirts (V RR 27).

33.

Applicant said that she told Franklin to go even
though the police were behind them (V RR 27).

34.

Applicant said she didn’t see the car coining at
the Quitman intersection, but said that she told
Franklin to “keep going and not to stop” (V RR
28).
Alleged Ineffective Assistance of Counsel
David Rushing

35.

Applicant alleges David Rushing was ineffective because he failed to request a recess to advise Applicant about the differences in parole

App. 8
between felony theft and felony murder before
she withdrew her plea in cause number 1406308.
Applicant’s Writ at 6-7.
36.

Applicant’s claim regarding Rushing is improperly brought under the instant cause. Applicant
was not represented by Rushing on the instant
cause.

37.

Providing Applicant with relief in the instant
cause would not remedy her complaint about
Rushing.

38.

Because the alleged deficiencies regarding Rushing occurred during his representation of Applicant on a different cause, Applicant fails to plead
and prove facts which entitle her to relief in this
particular claim. Ex parte Rains, 555 S.W.2d 478
(Tex. Crim. App. 1976).

39.

Rushing does not retain his file for cause number 1406308. See affidavit of David Rushing at
1.

40.

Rushing has an independent recollection of the
case due to the unusual facts and circumstances
of the case. See affidavit of David Rushing at 1.

41.

Rushing recalls Applicant’s chief concern in
cause number 1406308 was to avoid jail at all
cost. See affidavit of David Rushing at 1.

42.

Applicant was never concerned with parole eligibility during the course of Rushing’s representation; her focus was entirely on avoiding prison
and receiving probation. See affidavit of David
Rushing at 1.

App. 9
43.

Prior to Applicant’s plea, there was never any
indication from the State that Applicant may be
charged with murder instead of theft. See affidavit of David Rushing at 1.

44.

On the day of the PSI hearing, the State informed Rushing that if Applicant withdrew her
plea, a felony murder charge would be filed. See
affidavit of David Rushing at 1-2.

45.

Rushing recalls the events happened so quickly,
Applicant and her mother were in shock and
were not thinking clearly. See affidavit of David
Rushing at 2.

46.

Rushing was only given a few minutes to discuss
the issue with Applicant in a witness room. See
affidavit of David Rushing at 2.

47.

The trial court would not allow a reset to give
Applicant time to think about her decision. See
affidavit of David Rushing at 2.

48.

Applicant’s options were to take a prison sentence or have her case reified as a murder charge.
See affidavit of David Rushing at 2.

49.

Resetting the case would result in Applicant’s
guilty plea being withdrawn, and a murder
charge being filed. See affidavit of David Rushing at 2.

50.

Applicant did not want to continue with the PSI
and receive a prison sentence, so she chose to
withdraw her plea, with full knowledge a murder charge would be filed. See affidavit of David
Rushing at 2.

App. 10
51.

Rushing informed Applicant that the punishment range for murder is significantly higher
than that of theft, and that it was not uncommon for a jury to return a sentence of life. See
affidavit of David Rushing at 3.

52.

Even if Applicant were able to proceed on her
claim regarding Rushing under the instant
cause, Applicant fails to demonstrate that Rushing rendered ineffective assistance.

53.

The totality of the representation afforded Applicant was sufficient to protect his right to
reasonable effective assistance of counsel in
cause 1406308.
Maverick Ray

54.

Applicant alleges her trial counsel in the instant
cause, Maverick Ray, was ineffective for failing
to file a motion in limine, failing to object to the
trial court’s voir dire, failing to object to the
prosecutor’s voir dire, and failing to object to the
jury charge. Applicant’s writ at 10-11.
The Trial Court’s Voir Dire

55.

In voir dire, it is proper to use hypothetical fact
situations to explain the application of principles of the law. Cuevas v. State, 742 S.W.2d 331,
336, note 6 (Tex. Crim. App. 1987)

56.

Improper questions include those that ask potential jurors to reach conclusions based on “hypothetical facts” that mirror the case. See White

App. 11
v. State, 629 S.W.2d 701, 706 (Tex. Crim. App.
1981)
57.

A trial court’s comments are permissible when
analyzed as a whole and found to not undermine
the defendant’s rights. See Unkart v. State, 400
S.W.3d 94 (Tex. Crim. App. 2013) (Where the
trial court’s remarks were made during an explanation of the defendant’s rights and did not
imply guilt or otherwise infringe on the defendant’s rights, in stark contrast to trial court’s exasperated comments in Blue).

58.

The trial court’s comments were somewhat similar in voir dire between the two trials, but not
identical.

59.

The hypothetical presented by the trial court in
both the first and second voir dire closely mirrors the facts of the case.

60.

The trial court’s hypothetical in both instances
was to demonstrate how a person may be
charged under the law of parties.

61.

The trial court’s hypothetical in the second trial
did not end with an assertion that a jury must
find someone under those facts guilty, but instead concluded with: “You can be charged with
the same offense. . . . We’re all going to be
charged with felony murder” (III RR 29-30).

62.

Shortly after the hypothetical in the second
trial, the trial court indicated a neutral opinion
as to guilt or innocence by stating “And that’s if
there’s a theft and then after the theft if [the
State is] able to prove that Ms. Ashley Howard

App. 12
was in a vehicle that ran a red light that killed
somebody” (III RR 31).
63.

During voir dire in the second trial, the trial
court repeatedly indicated a neutral opinion to
the State’s ability to prove the case (III RR 17,
24, 26, 28, 31, 57).

64.

The trial court did not ask any commitment
questions of the venire panel related to the hypothetical in either voir dire.

65.

The trial court’s hypothetical in either voir dire
was not an improper comment or improper commitment that invaded the province of the jury.

66.

The trial court’s hypothetical in either voir dire
was not an improper comment or improper commitment that infringed on the defendant’s presumption of innocence.

67.

The trial court’s comments that the prosecution
believes the defendant committed the offense
are as follows: [The State thinks] “they can
prove this case to you beyond a reasonable
doubt” (III RR 17). “And they gladly accept that
burden of proof because we wouldn’t be here if
they didn’t think they could prove to you that
this woman is guilty of felony murder” (III RR
26).

68.

The trial court’s first mention of the State’s
belief the case can be proven is immediately
followed by the sentence “And we’ll find out
whether they can or whether they can’t” (III RR
17).

App. 13
69.

The court’s first mention of proof is made during
a lengthy explanation of how a case ends up before a jury for trial (III RR 12-22).

70.

The trial court’s second mention of proof is made
during an explanation of the elements of felony
murder and the burden of proof (III RR 26).

71.

The trial court does not deny Applicant the presumption of innocence with the statements
about the State’s belief the case can be proven.

72.

There is no prohibition on the State indicating that they believe they have the evidence
required to prove the case. Milo v. State, 214
S.W.2d 618, 619 (Tex. Crim. App. 1948) (holding
that the fact that “the district attorney, was the
representative of the State of Texas and of society is common knowledge and certainly not subject to [defense counsel’s] objection.”).1

73.

The trial court’s comment about experiencing a
road rage incident that morning, while unusual
is harmless.

74.

The instant case was not about road rage, and
the trial court’s road rage comment did not involve any commentary on the case before the
jury.

1

Improper comments are comments that include the prosecutor’s personal opinion. See Baldwin v. State, 499 S.W.2d 7, 9
(Tex. Crim. App. 1973) (Where the prosecutor stated in closing “I
think he’s guilty”); See also Menefee v. State, 614 S.W.2d. 167, 168
(Tex. Crim. App. 1981) (Where the prosecutor remarked in closing
that a witness’ testimony was the most honest he’s ever heard).

App. 14
75.

The trial court’s comments about road rage did
not infringe on the defendant’s rights.

76.

The failure to object when there is no error does
not constitute ineffective assistance of counsel
Holland v. State, 761 S.W.2d 307, 318-319 (Tex.
Crim. App. 1988) (holding that “counsel was under no obligation to do what would amount to a
futile act”).

77.

Applicant must show that the trial judge would
have committed error in overruling objections to
the indictment if they were made. See Vaughn v.
State, 931 S.W.2d 564 (Tex. Crim. App. 1996).

78.

Ray writes in his affidavit that he believes he
should have objected to the judge’s explanation
of the law of parties to preserve error. See Applicant’s Writ Exhibits at 12—Affidavit of Maverick
Ray.

79.

Ray writes in his affidavit that he believes the
trial court’s comments about road rage were
harmless and not something that required objection. See Applicant’s Writ Exhibits at 12—Affidavit of Maverick Ray.

80.

Ray writes that he did not object to any of the
trial court’s comments because he believed the
trial court would have responded in an unpleasant manner to him See Applicant’s Writ Exhibits
at 12—Affidavit of Maverick Ray.

81.

Applicant fails to show that Ray was deficient in
failing to object to the trial court’s hypothetical
on the law of parties, because Applicant fails to
show that an objection to the trial court’s hypothetical would have been error if overruled.

App. 15
82.

Ray’s belief that it would have been better to object does not automatically mean he was ineffective, because case law indicates that the trial
court could have overruled the objection without
inviting error.

83.

Applicant does not show that Ray was deficient
in failing to file a motion in liminie to the trial
court’s voir dire, because Applicant fails to show
that the court would have committed error in
overruling the motion.

84.

Applicant cannot show that Ray was deficient in
failing to object to the trial court’s explanation
of the State’s burden because Applicant fails to
show that the objection would have been error if
overruled.

85.

Applicant fails to show that an objection to the
trial court’s comment about her personal road
rage experience that morning would have been
error if overruled.
The Prosecutor’s Voir Dire

86.

The fact that the prosecutor represents the State
or citizens is long-standing common knowledge
and not objectionable. Milo v. State, 214 S.W.2d
618, 619 (Tex. Crim. App. 1948) (holding that the
fact that “the district attorney, was the representative of the State of Texas and of society is

App. 16
common knowledge and certainly not subject to
[defense counsel’s] objection.”).2
87.

In the instant case, the prosecutor told the venire panel that she represented the “citizens of
Harris County” (III RR 83).

88.

Applicant fails to show an objection to the prosecutor’s voir dire would have been sustained, or
would have been error if overruled.

89.

Applicant fails to show that Maverick Ray was
deficient in failing to make an objection to
the prosecutor’s voir dire. See Holland v. State,
761 S.W.2d 307, 318-319 (Tex. Crim. App. 1988)
(holding that “counsel was under no obligation
to do what would amount to a futile act”).
The Trial Court’s Charge on Felony Theft

90.

Applicant fails to provide any legal authority to
show that in order to be convicted of felony theft,
that there must be evidence that the parties
agreed to steal enough merchandise to constitute a felony.

91.

The evidence presented at trial showed no intent that Applicant and her codefendants specifically attempted to keep their theft to a
misdemeanor dollar amount.
2

Applicant cites Bray v. State, 478 S.W.2d 89 (Tex. Crim.
App. 1972), where the court held that the prosecutor’s statement
was objectionable and harmful because he told the jury “I shall be
eternally grateful that you are the people that are my employers
and not the likes of him and that I am not representing this sort
of thing”.

App. 17
92.

Ray writes that he did not object to the felony
theft charge because his belief is that the
amount stolen could be aggregated under the
law of parties. See Applicant’s Writ Exhibit 4 Affidavit of Maverick Ray at 15.

93.

Applicant fails to show that had Ray objected to
the charge on felony theft, it would have been
error for the trial court to overrule the objection.

94.

Applicant fails to show that Ray was deficient in
failing to object to the court’s charge on felony
theft.

95.

Applicant fails to prove by a preponderance of
the evidence that her counsel’s representation
fell below an objective standard of reasonableness. See Mitchell v. State, 68 S.W.3d 640, 642
(Tex. Crim. App. 2002); Narvaiz v. State, 840
S.W.2d 415, 434 (Tex. Crim. App. 1992) (citing
Strickland v. Washington, 466 U.S. at 688).

96.

Applicant fails to show that there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding would
have been different. See Mitchell at 642.

97.

Based on the totality of the representation, and
the particular circumstances of the case, trial
counsel provided Applicant with reasonably effective assistance of counsel. See Thompson v.
State, 9 S.W.3d 808, 813 (Tex. Crim. App. 1999).

Alleged Ineffective Assistance of Appellate Counsel
98.

Applicant alleges that her appellate counsel,
Cynthia Rayfield-Aguilar, was ineffective for

App. 18
failing to raise points of error regarding the trial
court’s comments in voir dire, and the trial
court’s charge regarding felony theft. Applicant’s Writ at 12.
99.

The court finds, based on the affidavit of Cynthia Rayfield-Aguilar, that Aguilar possesses independent recollection of her representation of
Applicant. Affidavit of Cynthia Rayfield-Aguilar
at 1.

100.

The court finds, based on the affidavit of Cynthia Rayfield-Aguilar, that Aguilar reviewed her
notes and research to complete her affidavit. Affidavit of Cynthia Rayfield-Aguilar at 1.

101.

The court finds, based on the affidavit of Cynthia Rayfield-Aguilar, that Aguilar considered
raising a point of error about the trial court’s hypothetical. Affidavit of Cynthia Rayfield Aguilar
at 1-2.

102.

The court finds, based on the affidavit of Cynthia Rayfield-Aguilar, that Aguilar did not raise
a point of error about the trial court’s hypothetical because it was her opinion that it was an
improper point of error because trial counsel
had not objected. Affidavit of Cynthia RayfieldAguilar at 2.

103.

The court finds, based on the affidavit of Cynthia Rayfield-Aguilar, that Aguilar did not raise
a point of error regarding the hypothetical or the
comments under the holding in Blue, because it
was her opinion that the trial court’s hypothetical did not rise to the level of “fundamental

App. 19
error of a constitutional dimension” required by
Blue. Affidavit of Cynthia Rayfield-Aguilar at 2.
104.

The court finds, based on the affidavit of Cynthia
Rayfield-Aguilar, that Aguilar did not believe the
trial court’s hypothetical and comments were as
extreme as the instances in the cases using
Blue. Affidavit of Cynthia Rayfield-Aguilar at 2.

105.

The court finds, based on the affidavit of Cynthia Rayfield-Aguilar, that Aguilar believes the
trial court’s hypothetical and comments did not
amount to a denial of the presumption of innocence or any other fundamental right. Affidavit
of Cynthia Rayfield-Aguilar at 2; See Unkart v.
State, 400 S.W.3d 94 (Tex. Crim. App. 2013).

106.

The court finds, based on the affidavit of Cynthia Rayfield-Aguilar, that Aguilar recognizes
that while the law says a jury must presume a
defendant innocent, there is no provision that
states that the jury must believe the prosecution
thinks the defendant is innocent. Affidavit of
Cynthia Rayfield-Aguilar at 3.

107.

As a result, Aguilar did not find it beneficial or
necessary to raise a point of error regarding the
trial court stating that the prosecution believes
they will be able to prove the case. Affidavit of
Cynthia Rayfield Aguilar at 3.

108.

The court finds, based on the affidavit of Cynthia Rayfield-Aguilar, that Aguilar considered
raising a point of error that the trial court’s
charge on conspiracy to commit felony theft was
invalid. Affidavit of Cynthia Rayfield-Aguilar at
3.

App. 20
109.

The court finds, based on the affidavit of Cynthia Rayfield-Aguilar, that Aguilar did not find
it beneficial or necessary to raise a point of error
on the trial court’s charge for conspiracy to commit felony theft because after looking at the
plain language of the relevant statutes, Aguilar
believed that portion of the charge was not an
error. Affidavit of Cynthia Rayfield-Aguilar at 3.

110.

The court finds, based on the affidavit of Cynthia Rayfield-Aguilar, that Aguilar believes that
when the parties agreed to the theft, the amount
stolen could be aggregated. Affidavit of Cynthia
Rayfield-Aguilar at 3-5.

111.

The court finds, based on the affidavit of Cynthia Rayfield-Aguilar, that Aguilar noted there
was no evidence presented that the goal was to
only commit a misdemeanor theft. Affidavit of
Cynthia Rayfield-Aguilar at 5.

112.

To prove that appellate counsel was constitutionally ineffective for failing to assert a particular point of error on appeal, it must be shown
that (1) counsel’s decision not to raise a particular point of error was objectively unreasonable,
and (2) there is a reasonable probability that,
but for counsel’s failure to raise that particular
issue, applicant would have prevailed on appeal.
Ex parte Santana, 227 S.W.3d 700, 704-05 (Tex.
Crim. App. 2007).

113.

Applicant’s legal arguments regarding her appellate counsel are substantively similar to
those presented against the trial court and her
trial counsel, therefore, the same legal reasoning

App. 21
applies to why Applicant’s proposed points of error would not have succeeded on appeal.
114.

Applicant fails to show that Aguilar’s decision to
not raise any of the proposed points of error was
objectively unreasonable.

115.

Applicant fails to show that there is a reasonable probability that had Aguilar raised the proposed points of error that she would have
prevailed on appeal.

116.

Applicant fails to demonstrate that her Appellate counsel was ineffective and fails to meet her
burden under Strickland. Ex parte Butler, 884
S.W.2d 782, 783 (Tex. Crim. App. 1994); Strickland v. Washington, 466 U.S. 668, 686 (1984).

117.

Based on the totality of the representation and
the particular circumstances of the case, trial
counsel provided Applicant with reasonably effective assistance of appellate counsel. See
Thompson v. State, 9 S.W.3d 808, 813 (Tex. Crim.
App. 1999).

118.

In all things, Applicant fails to show that her
conviction was improperly obtained.

THE CLERK IS ORDERED to prepare a transcript and transmit same to the Court of Criminal Appeals as provided by TEX. CRIM. PROC. CODE art. 11.07
(West 2015). The transcript shall include certified copies of the following documents:
1.

the application for writ of habeas corpus;

2.

the State’s answer (including any exhibits and
attachments);

App. 22
3.

the affidavit of David Rushing;

4.

the affidavit of Cynthia Rayfield-Aguilar;

5.

the Court’s order;

6.

The appellate
1465955.

opinion

in

cause

number

THE CLERK is further ORDERED to send a copy
of this order to counsel for the applicant, Randy Schaffer, 1201 Main, Suite 1440, Houston, TX 77002, and to
counsel for the State, BreAnna Schwartz, 500 Jefferson
Street, Suite 600, Houston, Texas 77002.
By the following signature, the Court
adopts the State’s Proposed Findings of
Fact, Conclusions of Law and Order
in Cause Number 1465955-A.
SIGNED AND ENTERED.
Signed:
12/10/2020 Chuck Silverman
JUDGE PRESIDING,
183RD DISTRICT COURT
HARRIS COUNTY, TEXAS

App. 23
CERTIFICATE OF SERVICE
The undersigned counsel certifies that I have
served a copy of State’s Proposed Findings of Fact, Conclusions of Law and Order to counsel for the Applicant
on November 5, 2020 by e-mail as follows:
Randy Schaffer: noguilt@schafferfinn.com
/s/ BreAnna Schwartz
BreAnna Schwartz
Assistant District Attorney
Harris County, Texas
500 Jefferson Street,
Suite 600
Houston, Texas 77002
(713) 274-5990
Schwartz_BreAnna@
dao.hctx.net
Texas Bar ID #24076954

App. 24
139 S.Ct. 150
Supreme Court of the United States
Ashley Mere HOWARD, petitioner,
V.
TEXAS.
No. 17-9302.
Oct. 1, 2018.
Opinion
Petition for writ of certiorari to the Court of Appeals of Texas, First District denied.

App. 25
FILE COPY
OFFICIAL NOTICE FROM
COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
[SEAL]
11/15/2017

COA No. 01-16-00120-CR
Tr. Ct. No. 1465955
HOWARD ASHLEY MERE
PD-0939-17
On this day, the Appellant’s petition for discretionary
review has been refused.
Deana Williamson, Clerk
1ST COURT OF APPEALS CLERK
CHRISTOPHER A. PRINE
301 FANNIN
HOUSTON, TX 77002-7006
* DELIVERED VIA E-MAIL *

App. 26
527 S.W.3d 248
Court of Appeals of Texas, Houston (1st Dist.).
Ashley Mere HOWARD, Appellant
v.
The STATE of Texas, Appellee
NO. 01-16-00120-CR
|
Opinion issued April 25, 2017
|
Discretionary Review Refused November 15, 2017
On Appeal from the 183rd District Court, Harris
County, Texas, Trial Court Case No. 1465955
Attorneys and Law Firms
Cynthia Rayfield-Aguilar, 401 College Street, Suite
260, Montgomery, TX 77356, for Appellant.
Kim Ogg, District Attorney—Harris County, 1201
Franklin, Suite 600, Houston, TX 77002, Eric Kugler,
Assistant District Attorney; Harris County, Texas, 1201
Franklin, Suite 600, Houston, TX 77002, for Appellee.
Panel consists of Chief Justice Radack and Justices
Brown and Lloyd.
OPINION
Harvey Brown, Justice
Ashley Howard and her two friends stole merchandise from a department store, fled in a getaway
car, and led the police on a high-speed chase, which

App. 27
came to an abrupt end when they ran a red light and
crashed into a vehicle passing through the intersection, killing the driver, Rosalba Quezada. Howard was
indicted for felony murder. She was convicted and sentenced to 35 years’ confinement and fined $10,000. In
two issues, Howard contends that the trial court erred
by (1) instructing the jury to find her guilty of felony
murder upon a predicate finding that her friends
caused Quezada’s death while acting in furtherance of
a misdemeanor conspiracy and (2) denying her motion
to suppress a videotape of a statement she made to an
officer while at the hospital in police custody. We affirm.
Background
It was undisputed at trial that Howard and her
friend, Racquel Gonzalez, agreed to steal polo shirts
from a department store. They recruited another
friend, Shiquinta Franklin, to help them steal the
shirts by driving Howard’s vehicle as the getaway car.
Howard picked up Gonzalez and Franklin, and
they drove to the department store. Howard and Gonzalez entered the store while Franklin waited in the
driver’s seat of the car. Howard and Gonzalez proceeded to grab sixteen shirts off a clothing rack1 and
run out of the store, setting off the theft-prevention
sensors. They jumped into the getaway car and told
1

The department store security camera videotaped Howard
taking six shirts and Gonzalez taking ten. The total value of the
sixteen shirts was $2,200.

App. 28
Franklin to go. Franklin sped out of the parking lot,
and, almost immediately, the police began to pursue
them.
In an attempt to evade arrest, they led the police
on a dangerous, high-speed chase on and off the highway and through residential areas, during which they
ran stop signs, reached speeds of over 100 miles per
hour, and passed other vehicles on the inside shoulder.
They eventually came to a red light at an intersection on the feeder road. Gonzalez testified that she told
Franklin to stop the car but that Howard told Franklin
to “keep going” because she “had too much to lose.”
Franklin likewise testified that Howard told her to “go,
go, go” through the red light. Franklin ran the red light
at over sixty miles per hour and crashed into another
vehicle passing through the intersection, killing the vehicle’s driver, Rosalba Quezada, and injuring her three
children, one seriously.
Howard attempted to flee the accident scene on
foot but was apprehended by the police and taken to
the hospital. At the hospital, she was questioned by Officer R. Klementich. Howard admitted that she, Gonzalez, and Franklin had conspired to steal the shirts
and then tried to evade arrest when the police began
to pursue them.
Howard was indicted for felony murder, tried, and
convicted. She appeals.

App. 29
Charge Error
In her first issue, Howard contends that the trial
court instructed the jury to convict under an erroneous
theory of liability. The charge’s second application paragraph instructed the jury to find Howard guilty of felony murder upon a predicate finding that Franklin
caused Quezada’s death while acting in furtherance of
a conspiracy with Howard to commit state jail felony
theft. Howard argues that a conviction for felony murder cannot be based on a conspiracy to commit state
jail felony theft because such a conspiracy is not itself
a felony but rather a misdemeanor. The State responds
that a conviction for felony murder can be based on a
conspiracy to commit a state jail felony under Section
7.02(b) of the Penal Code, which establishes a conspiracy theory of party liability. According to the
State, under this statute, Howard may be convicted for
Franklin’s felony murder of Quezada because Franklin
committed the felony murder while driving the getaway car in furtherance of her and Howard’s conspiracy
to commit felony theft.
A. Applicable law and standard of review
Under the Code of Criminal Procedure, the trial
court must “deliver to the jury . . . a written charge distinctly setting forth the law applicable to the case. . . .”
Tex. Code Crim. Proc. art. 36.14. “The purpose of the
jury charge is to inform the jury of the applicable law
and guide them in its application to the case. . . .”
Hutch v. State, 922 S.W.2d 166, 170 (Tex. Crim. App.

App. 30
1996). In reviewing a jury-charge issue, we determine
whether error exists and, if so, whether sufficient
harm resulted from the error to compel reversal. Ngo
v. State, 175 S.W.3d 738, 743 (Tex. Crim. App. 2005);
Ryser v. State, 453 S.W.3d 17, 27 (Tex. App.—Houston
[1st Dist.] 2014, pet. ref ’d).
B. The charge correctly applied the law to the
facts
Howard was prosecuted for felony murder. Section
19.02(b)(3) of the Penal Code sets forth the offense of
felony murder. It provides that a person commits felony murder if he “commits or attempts to commit a felony, other than manslaughter, and in the course of and
in furtherance of the commission or attempt, or in immediate flight from the commission or attempt, he
commits or attempts to commit an act clearly dangerous to human life that causes the death of an individual.” Tex. Penal Code § 19.02(b)(3).
The State’s theory of liability, however, was not
based on Section 19.02(b)(3). Instead, it was based on
Section 7.02(b), which establishes a conspiracy theory
of party liability. Id. § 7.02(b). Section 7.02(b) provides
that “[i]f, in the attempt to carry out a conspiracy to
commit one felony, another felony is committed by one
of the conspirators, all conspirators are guilty of the
felony actually committed, though having no intent to
commit it, if the offense was committed in furtherance
of the unlawful purpose and was one that should have
been anticipated as a result of the carrying out of the

App. 31
conspiracy.” Id.; see Leal v. State, No. 01-14-00972-CR,
2016 WL 796950, at *6 (Tex. App.—Houston [1st Dist.]
Mar. 1, 2016, pet. ref’d) (mem. op., not designated for
publication) (“Under Section 7.02(b), all the conspirators intending to commit one felony may be convicted
for any other felony actually committed in furtherance
of the intended felony if such felony was one that
should have been anticipated in the attempt to carry
out the intended felony.”).
The conspiracy here was a conspiracy to commit
state jail felony theft. Section 31.03(a) of the Penal
Code defines “theft” as the unlawful appropriation of
property with the intent to deprive the owner of the
property. Tex. Penal Code § 31.03(a). At the time that
Howard and Franklin conspired to steal the shirts, the
offense of theft was a state jail felony if the value of the
property was $1,500 or more but less than $30,000.2
The value of the shirts they conspired to steal was
$2,200. Therefore, their conspiracy was a conspiracy to
commit state jail felony theft.3

2

See Act of June 20, 2015, 84th Leg., R.S., ch. 1251, § 10,
2015 Tex. Sess. Law Serv. 1251 (codified at Tex. Penal Code
§ 31.03(e)(4)(A)). Theft is now a state jail felony if “the value of
the property stole is $2,500 or more but less than $30,000. . . .”
Tex. Penal Code § 31.03(e)(4)(A).
3
The offense of conspiracy to commit state jail felony theft
would be a Class A misdemeanor. See id. § 15.02(d) (offense of
criminal conspiracy “is one category lower than the most serious
felony that is the object of the conspiracy, and if the most serious
felony that is the object of the conspiracy is a state jail felony, the
offense is a Class A misdemeanor”).

App. 32
Franklin is guilty of felony murder because she
caused Quezada’s death by committing an act clearly
dangerous to human life while in immediate flight
from the commission of felony theft. Id. § 19.02(b)(3).
Because Howard conspired to commit state jail felony
theft with Franklin, and Franklin committed felony
murder while acting in furtherance of the theft conspiracy, and Franklin’s felony murder should have
been anticipated by Howard as a result of carrying out
of the conspiracy, Howard, as Franklin’s co-conspirator,
is guilty of the felony murder of Quezada as well. Id.
§ 7.02(b); see Lee v. State, No. 01-07-00992-CR, 2009
WL 1562861, at *4 (Tex. App.—Houston [1st Dist.]
June 4, 2009, pet. ref ’d) (mem. op., not designated
for publication) (holding that, “under the law of parties, appellant became criminally responsible for the
offense of felony murder by conspiring to rob the complainant knowing that his friend was carrying a firearm.”).
Conviction under Section 7.02(b) only requires a
conspiracy to commit a felony; it does not also require
that the conspiracy itself constitute a felony. See Tex.
Penal Code § 7.02(b). Thus, Howard may be guilty of
felony murder even though the conspiracy itself, had
she been charged with that offense, would have been a
misdemeanor. See id. § 15.02(d) (conspiracy to commit
state jail felony theft is misdemeanor).
The charge’s second application paragraph tracked
the language of Section 7.02(b), instructing the jury
to find Howard guilty upon finding that Franklin
caused Quezada’s death while acting in furtherance

App. 33
of a conspiracy to commit felony theft.4 Specifically, the
application paragraph instructed the jury to find Howard guilty of felony murder upon predicate findings
that:

4

•

Howard and Franklin conspired to commit felony theft;

•

Howard and Franklin carried out their conspiracy to commit felony theft;

•

while in the course of committing the felony
theft, Franklin committed an act clearly dangerous to human life that caused the death of
Rosalba Quezada—i.e., she ran a red light
while attempting to evade arrest and crashed
her vehicle into the vehicle driven by Quezada, causing Quezada’s death; and

The second application paragraph stated: “If you find from
the evidence beyond a reasonable doubt that the defendant, Ashley Mere Howard, and Racquel Gonzalez and/or Shiquinta Franklin entered into an agreement to commit the felony offense of theft
of property owned by Leon Bauer, and pursuant to that agreement, if any, they did carry out their conspiracy and that in Harris County, Texas, on or about the 23rd day of May, 2013, while
in the course of committing such theft of property owned by Leon
Bauer, Racquel Gonzalez and/or Shiquinta Franklin committed
an act clearly dangerous to human life that caused the death of
Rosalba Quezada by running a red light while evading arrest or
detention and causing her motor vehicle to strike the motor vehicle driven by Rosalba Quezada, and that the felony murder of
Rosalba Quezada was committed in furtherance of the conspiracy
and was an offense that should have been anticipated by the defendant as a result of carrying out the conspiracy . . . then you will
find the defendant guilty of felony murder, as charged in the indictment.”

App. 34
•

Franklin’s felony murder of Quezada was
committed in furtherance of the conspiracy to
commit felony theft and should have been anticipated by Howard as a result of carrying
out the conspiracy.5

Thus, the second application paragraph did not
permit a misdemeanor conspiracy to serve as the
underlying offense for convicting Howard of felony
murder under the felony murder statute. Rather, it
permitted a felony murder committed by Howard’s
co-conspirator, Franklin, to serve as the basis for convicting Howard of felony murder under the conspiracyliability statute. Therefore, the second application
paragraph correctly applied the law to the facts. Accordingly, we overrule Howard’s first issue.
Motion to Suppress
In her second issue, Howard contends that the
trial court erred by denying her motion to suppress
a videotape of the statement she made to Officer
Klementich while at the hospital in police custody. It is
undisputed that Klementich did not begin the interview by reading Howard her Miranda warnings. Instead, he began with several minutes of questioning.
Then he paused, warned her, obtained a waiver, and
5

The abstract portion of the charge instructed the jury that
“[a] person commits the offense of felony murder if she commits a
felony, other than manslaughter, and in the course of and in the
furtherance of the commission, or in immediate flight from the
commission, she commits an act clearly dangerous to human life
that causes the death of an individual.”

App. 35
continued questioning. The videotape presented to
the jury started at the point in the interview when
Klementich began to read Howard her Miranda warnings; it did not include her pre-warning statements.
Howard argues that the videotape was inadmissible because Klementich deliberately employed
a two-step “question first, warn later” interrogation
strategy without taking any “curative measures” before Howard made her post-warning statements. The
State responds that the videotape was admissible because Klementich’s pre-warning questioning was inadvertent and Howard knowingly and voluntarily waived
her rights before making her post-warning statements,
which were the only statements included as evidence.
A. Applicable law and standard of review
Under Texas criminal law, a statement made by a
defendant during a custodial interrogation is inadmissible unless two elements are satisfied. Joseph v. State,
309 S.W.3d 20, 24 (Tex. Crim. App. 2010). First, before
beginning the interrogation, the police must give the
defendant the proper Miranda warnings. Tex. Code
Crim. Proc. art. 38.22 § 2(a); see Miranda v. Arizona,
384 U.S. 436, 444, 86 S.Ct. 1602, 1612, 16 L.Ed.2d 694
(1966). Second, after receiving the warnings, the defendant must “knowingly, intelligently, and voluntarily” waive her rights. Tex. Code Crim. Proc. art. 38.22
§ 2(b); see Miranda, 384 U.S. at 444, 86 S.Ct. at 1612.
“MidstreamMiranda warnings are not permissible.” Ervin v. State, 333 S.W.3d 187, 212 (Tex. App.—

App. 36
Houston [1st Dist.] 2010, pet. ref d). The officer may not
begin by questioning the defendant, elicit inculpatory
statements, and then provide the warnings, obtain a
waiver, and continue questioning. Id. If the officer does
so, the defendant’s post-warning statements, including
those voluntarily made, may be held inadmissible.
To determine whether statements made after midstream warnings are admissible, the trial court must
first determine whether the officer’s pre-warning questioning was inadvertent or deliberate. Carter v. State,
309 S.W.3d 31, 32 (Tex. Crim. App. 2010). If the officer’s
pre-warning questioning was inadvertent, the defendant’s post-warning statements are admissible as long
as they were knowingly and voluntarily made. Id.;
Ervin, 333 S.W.3d at 213. But if the officer’s pre-warning questioning was deliberate and employed as part
of a two-step “question first, warn later” interrogation
strategy, the officer must take “curative measures” beyond the formal Miranda warnings before any postwarning statement is made for that statement to be
admissible. Martinez v. State, 272 S.W.3d 615, 626 (Tex.
Crim. App. 2008); Ervin, 333 S.W.3d at 212-13. The
curative measures “should be designed to ensure that
a reasonable person in the suspect’s situation would
understand the import and effect of the Miranda warning and of the Miranda waiver.” Martinez, 272 S.W.3d
at 626 (quoting Missouri v. Seibert, 542 U.S. 600,
622,124 S.Ct. 2601, 2616, 159 L.Ed.2d 643 (2004) (Kennedy, J., concurring)).
We review a trial court’s ruling on a motion to suppress under a bifurcated standard of review. Ervin, 333

App. 37
S.W.3d at 202. We review the trial court’s factual findings for clear error, affording almost total deference to
the trial court’s rulings on questions of historical fact
and mixed questions of law and fact that turn on an
evaluation of credibility and demeanor. Carter, 309
S.W.3d at 39-40; Warren v. State, 377 S.W.3d 9, 15 (Tex.
App.—Houston [1st Dist.] 2011, pet. ref ’d). We review
de novo the trial court’s rulings on questions of law
and mixed questions of law and fact that do not turn
on evaluation of credibility and demeanor. Ervin, 333
S.W.3d at 202.
B. The videotape of Howard’s post-warning
statement was admissible
At the hearing on Howard’s motion to suppress,
the trial court heard Officer Klementich’s testimony
and watched a videotape of his interview of Howard.
Unlike the videotape presented to the jury, the videotape presented at the suppression hearing included
Officer Klementich’s pre-warning questioning and
Howard’s pre-warning statements.
Klementich testified that he had been assigned to
investigate fatality crashes and intoxicated driving offenses for the Houston Police Department’s Vehicular
Crime Division. On the day of the accident, he was
called to the scene and photographed the crash. His
supervisor then asked him to go to the hospital and
interview the three occupants of the vehicle that had
caused the accident.

App. 38
Klementich arrived at the hospital, identified
Franklin, Howard, and Gonzalez as the three occupants of the vehicle, and proceeded to interview them
one at a time to gain an “understanding of what had
occurred.” As his job focused on fatality crashes and
intoxicated driving offenses, his “primary” concern was
to determine whether Franklin had been driving while
intoxicated.
After he obtained Franklin’s consent to draw a
blood sample, Klementich interviewed Howard. Although
Howard was in the custody of the Humble Police Department, Klementich did not begin the interview by
reading her the Miranda warnings. Instead, he began with a little over four-and-a-half minutes of general, open-ended questioning about the theft, during
which time Howard made several inculpatory statements. Specifically, Howard told Klementich that she
and Gonzalez had taken the shirts from the department store and that Franklin had driven the getaway
car.
Klementich then paused for a moment, stopped
the questioning, and told Howard that he had “kind of
messed up.” He told Howard that she had certain
rights and that he had to read them to her. Klementich
then proceeded to read Howard her Miranda warnings.
After receiving her warnings, Howard waived her
rights and continued to provide her videotaped statement.

App. 39
When asked why he waited over four minutes to
read Howard her Miranda warnings, Klementich provided the following response:
Well, to be quite frank with you, I had a mental lapse. I realized that even though I was not
asking Ms. Howard questions regarding the
fatality crash, she still was in custody. She
was not free to leave. So, I believed that it was
prudent to Mirandize her since she was in
custody.
Viewed in the light most favorable to the trial
court’s ruling, this evidence does not show that Klementich deliberately employed a two-step “question
first, warn later” interrogation strategy. Rather, it
shows that he accidently began the interview with
questioning, realized he had forgotten to read Howard
her Miranda warnings when she started making inculpatory statements, then provided her the warnings,
obtained a valid waiver, and continued the interview.
Affording almost total deference to the trial court’s
factual findings, we hold that the trial court did not
commit clear error in finding that Klementich’s prewarning questioning was inadvertent and that Howard’s post-warning statements were knowingly and
voluntarily made. Carter, 309 S.W.3d at 39-40; Warren,
377 S.W.3d at 15.
Having concluded that the trial court did not err
in finding that the pre-warning questioning was inadvertent, we do not reach the second step of the analysis
to determine whether proper curative measures were
taken. We overrule Howard’s second issue.

App. 40
Conclusion
We affirm the trial court’s judgment.

App. 41
[SEAL]

CASE NO. 146595501010
INCIDENT NO./TRN: 9168825315D003

THE STATE OF TEXAS

§ IN THE 183RD DISTRICT
§
v.
§ COURT
HOWARD, ASHLEY MERE § HARRISCOUNTY, TEXAS
§
STATE ID NO.: TX50225466 §
JUDGMENT OF CONVICTION BY JURY
Judge Presiding:
Date Judgement
HON.
Entered: 02/04/2016
VANESSA VELASQUEZ
Attorney for State:
KRISTIN ASSAAD &
ALYCIA HARVEY

Attorney for Defendant:
RAY, MAVERICK JOHN

Offense for which Defendant Convicted:
FELONY MURDER
Charging Instrument
INDICTMENT

Statute for Offense:
N/A

Date of Offense:
05/23/2013
Degree of Offense:
1ST DEGREE FELONY

Plea to Offense:
NOT GUILTY

Verdict of Jury:
GUILTY

Findings on Deadly Weapon:
N/A

Plea to 1st Enhancement
Paragraph: TRUE

Plea to 2nd Enhancement/
Habitual Paragraph: N/A

App. 42
Findings on 1st Enhancement Findings on 2nd Enhancement/
Paragraph: TRUE
Habitual Paragraph: N/A
Punished Assessed by:
JURY

Date Sentence Date Sentence
Imposed:
to Commence:
02/04/2016
02/04/2016

Punishment and
35 YEARS INSTITUTIONAL
Place of Confinement: DIVISION, TDCJ
THIS SENTENCE SHALL RUN CONCURRENTLY.

⬜

SENTENCE OF CONFINEMENT SUSPENDED, DEFENDANT
PLACED ON COMMUNITY SUPERVISION FOR

Fine:
$10,000

N/A

Court Costs: Restitution Restitution Payable
As
$ N/A
to:
Assessed
⬜ VICTIM
(see below)
⬜ AGENCY/AGENT
(see below)

Sex Offender Registration Requirements apply
to the Defendant. TEX. CODE CRIM. PROC. chapter 62.
The age of the victim at the time of the offense was N/A
If Defendant is to serve sentence
in TDCJ, enter incarceration
periods in chronological order.
From 05/23/2010 to From 01/14/2015 to
05/25/2013
01/15/2015
Time
From 07/12/2013 to From 02/04/2015 to
Credited:
08/12/2013
02/04/2016
From 10/25/2013 to From
to
07/19/2014

App. 43
If Defendant is to serve sentence in county
jail or is given credit toward fine and costs,
enter days credited below.
N/A DAYS NOTES: N/A
All pertinent information, names and assessments indicated above are incorporated into the language of the judgment
below by reference.
This cause was called for trial in Sabine
County, Texas. The State appeared by her District Attorney.
Counsel/Waiver of Counsel (select one)
☒ Defendant appeared in person with Counsel.
⬜ Defendant knowingly, intelligently, and voluntarily
waived the right to representation by counsel in
writing in open court.
It appeared to the Court that Defendant was mentally competent and had pleaded as shown above to the
charging instrument. Both parties announced ready
for trial. A jury was selected, impaneled, and swore.
The INDICTMENT was read to the jury, and Defendant entered a plea to the charged offense. The Court
received the plea and entered it of record.
The jury heard the evidence submitted and argument of counsel. The Court charged the jury as to its
duty to determine the guilt or innocence of Defendant,
and the jury retired to consider the evidence. Upon returning to open court, the jury delivered its verdict in
the presence of Defendant and defense counsel, if any.

App. 44
The Court received the verdict and ORDERED it entered upon the minutes of the Court.
Punishment Assessed by Jury / Court / No
election (select one)
☒ Jury. Defendant entered a plea and filed a written
election to have the jury assess punishment. The jury
heard evidence relative to the question of punishment.
The Court charged the jury and it retired to consider
the question of punishment. After due deliberation, the
jury was brought into Court, and, in open court, it returned its verdict as indicated above.
⬜ Court. Defendant elected to have the Court assess
punishment. After hearing evidence relative to the
question of punishment, the Court assessed Defendant’s punishment as indicated above.
⬜ No Election. Defendant did not file a written
election as to whether the judge or jury should assess
punishment. After hearing evidence relative to the
question of punishment, the Court assessed Defendant’s punishment as indicated above.
The Court FINDS Defendant committed the above
offense and ORDERS, ADJUDGES AND DECREES
that Defendant is GUILTY of the above offense. The
Court FINDS the Presentence Investigation, if so ordered, was done according to the applicable provisions
of TEX. CODE CRIM. PROC. art. 42.12 § 9.
The Court ORDERS Defendant punished as indicated above. The Court ORDERS Defendant to pay all
fines, court costs, and restitution as indicated above.

App. 45
Punishment Options (select one)
☒ Confinement in State Jail or Institutional
Division. The Court ORDERS the authorized agent
of the State of Texas or the Sheriff of this county to
take, safely convey, and deliver Defendant to the Director, Institutional Division, TDCJ. The Court
Orders Defendant to be confined for the period and in
the manner indicated above. The Court ORDERS Defendant remanded to the custody of the Sheriff of this
county until the Sheriff can obey the directions of
this sentence. The Court ORDERS that upon release
from confinement, Defendant proceed immediately to
the Harris County District Clerk’s office. Once
there, the Court ORDERS Defendant to pay, or make
arrangements to pay, any remaining unpaid fines,
court costs, and restitution as ordered by the Court
above.
⬜ County Jail—Confinement / Confinement in
Lieu of Payment. The Court ORDERS Defendant immediately committed to the custody of the Sheriff of
Harris County, Texas on the date the sentence is to
commence. Defendant shall be confined in the Harris
County Jail for the period indicated above. The Court
ORDERS that upon release from confinement, Defendant shall proceed immediately to the Harris County
District Clerk’s office. Once there, the Court ORDERS Defendant to pay, or make arrangements to pay,
any remaining unpaid fines, court costs, and restitution as ordered by the Court above.

App. 46
⬜ Fine Only Payment. The punishment assessed
against Defendant is for a FINE ONLY. The Court ORDERS Defendant to proceed immediately to the Office
of the Harris County District Clerk. Once there,
the Court ORDERS Defendant to pay or make arrangements to pay all fines and court costs as ordered by the
Court in this cause.
Execution / Suspension of Sentence (select
one)
☒ The Court ORDERS Defendant’s sentence
CUTED.

EXE-

⬜ The Court ORDERS Defendant’s sentence of confinement SUSPENDED. The Court ORDERS Defendant
placed on community supervision for the adjudged period (above) so long as Defendant abides by and does
not violate the terms and conditions of community supervision. The order setting forth the terms and conditions of community supervision is incorporated into
this judgment by reference.
The Court ORDERS that Defendant is given credit
noted above on this sentence for the time spent incarcerated.
The Court Orders that Defendant is given credit
noted above on this sentence for the time spent incarcerated. The Court further ORDERS that if the defendant is convicted of two or more offences in a single
criminal action, that each cost or fee amount must be
assessed using the highest category of offense. Tex.
Code Crimp. P. art. 102.073.

App. 47
Furthermore, the following
special findings or orders apply:
Signed and entered on 02/04/2016
X Vanessa Velasquez
VANESSA VELASQUEZ
JUDGE PRESIDING

Notice of Appeal Filed: FEB 05 2016
Mandate Received: 12/22/20107
Type of Mandate: AFFIRMANCE
After Mandate Received, Sentence to Begin Date is:
02/05/2016 2/4/2016 [/s/ [Illegible]]
Jail Credit TO REMAIN THE SAME
Def Received on at ⬜ AM ⬜ PM
By Deputy Sheriff of Harris County
Clerk A MELENDEZ
Case Number
Defendant HOWARD, ASHLEY MERE
IN/KR04 999 LCBI /s/ [Illegible] I CBU 🗸 LN/KR18 999
[Right Thumbprint Omitted]

